<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                  
                          [H.A.S.C. No. 116-7]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

  SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES 
                                HEARING

                                   ON

                         DEPARTMENT OF DEFENSE

                        INFORMATION TECHNOLOGY,

                           CYBERSECURITY, AND

                         INFORMATION ASSURANCE

                               __________

                              HEARING HELD
                           FEBRUARY 26, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-233                       WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                                     
  


   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

               JAMES R. LANGEVIN, Rhode Island, Chairman

RICK LARSEN, Washington              ELISE M. STEFANIK, New York
JIM COOPER, Tennessee                SAM GRAVES, Missouri
TULSI GABBARD, Hawaii                RALPH LEE ABRAHAM, Louisiana
ANTHONY G. BROWN, Maryland           K. MICHAEL CONAWAY, Texas
RO KHANNA, California                AUSTIN SCOTT, Georgia
WILLIAM R. KEATING, Massachusetts    SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 MIKE GALLAGHER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       MICHAEL WALTZ, Florida
JASON CROW, Colorado, Vice Chair     DON BACON, Nebraska
ELISSA SLOTKIN, Michigan             JIM BANKS, Indiana
LORI TRAHAN, Massachusetts
                Josh Stiefel, Professional Staff Member
                Peter Villano, Professional Staff Member
                         Caroline Kehrli, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     1
Scott, Hon. Austin, a Representative from Georgia, Subcommittee 
  on Intelligence and Emerging Threats and Capabilities..........     3

                               WITNESSES

Crall, BGen Dennis, USMC, Senior Military Advisor for Cyber 
  Policy and Deputy Principal Cyber Advisor, Office of the 
  Secretary of Defense...........................................     6
Deasy, Dana, Chief Information Officer, Office of the Secretary 
  of Defense.....................................................     4
Hershman, Lisa, Acting Chief Management Officer, Office of the 
  Secretary of Defense...........................................     3

                                APPENDIX

Prepared Statements:

    Crall, BGen Dennis...........................................    60
    Deasy, Dana..................................................    49
    Hershman, Lisa...............................................    37
    Langevin, Hon. James R.......................................    33
    Stefanik, Hon. Elise M., a Representative from New York, 
      Ranking Member, Subcommittee on Intelligence and Emerging 
      Threats and Capabilities...................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................    67

Questions Submitted by Members Post Hearing:

    Mr. Brown....................................................    74
    Mr. Conaway..................................................    71
    Mr. Kim......................................................    74
    Ms. Stefanik.................................................    71
                   
                   
.                   
                   DEPARTMENT OF DEFENSE INFORMATION
          TECHNOLOGY, CYBERSECURITY, AND INFORMATION ASSURANCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Intelligence and Emerging Threats and 
                                              Capabilities,
                        Washington, DC, Tuesday, February 26, 2019.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2212, Rayburn House Office Building, Hon. James R. 
Langevin (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE AND 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. The subcommittee will come to order.
    I want to take this opportunity, first of all, to welcome 
our witnesses here today. And we welcome today's hearing on the 
Department of Defense information technology, cybersecurity, 
and information assurance. This is the subcommittee's first 
hearing on the Department's current IT [information technology] 
status, its modernization efforts, and its strategic direction 
for the foreseeable future.
    Our witnesses today are Ms. Lisa Hershman, the Acting Chief 
Management Officer; Mr. Dana Deasy, the Department's Chief 
Information Officer; and Brigadier General Dennis Crall, the 
Deputy Principal Cyber Advisor.
    The Defense Department's IT infrastructure is as important 
to the mission as the weapons platforms that our service 
members employ. We cannot expect the services to maintain 
combat superiority if the technology that we rely on is 
deficient, outdated, insecure, or inoperable. IT should never 
be considered a back-office function as it may have been in 
previous eras.
    The challenge of managing the Department's IT is 
highlighted best by the sheer number of topics that we will be 
hearing about today, including cybersecurity, business systems, 
artificial intelligence, data management, JEDI [Joint 
Enterprise Defense Infrastructure], and the Cyber Excepted 
Service.
    IT reform and modernization require appropriate stewardship 
by the Department's leaders, many of whom are seated here 
today. Over the past several years, Congress has endeavored to 
ensure that the Department is structured in a way that gives 
senior leaders the authorities that they need to carry out 
their responsibilities.
    For example, Congress created and elevated the position of 
CMO [Chief Management Officer] and gave that individual the 
responsibility for business systems. Additionally, Congress 
provided new standard-setting and budget authorities to the CIO 
[Chief Information Officer] that took effect at the beginning 
of the calendar year. All of this was done with an 
understanding that the PCA [Principal Cyber Advisor] also has a 
critical role to play with respect to cybersecurity of such 
systems.
    Given how dynamic the IT space is, it is reasonable for 
this subcommittee to continually take stock of how the 
Department is implementing statutory changes and whether the 
outcomes match congressional intent. For this reason, I am 
eager to hear from the witnesses how the new roles, 
responsibilities, and authorities are being implemented and 
whether any of the changes made in recent years ought to be 
modified further. This includes discussion of the resources 
dedicated to the office of the PCA and coordination mechanisms.
    In addition to organizational changes, the Department is 
taking positive steps to embrace new technologies. Initiatives 
such as the Joint Artificial Intelligence Center and the Joint 
Enterprise Defense Infrastructure cloud initiative seek to 
capitalize on emergent technologies with significant potential 
benefits for the Department. This subcommittee is invested in 
the success of these efforts, if managed correctly, and with an 
understanding of how these dollar investments at the OSD 
[Office of the Secretary of Defense] level coincide with 
efforts by the services and agencies, such as the other 300-
plus cloud computing initiatives.
    Success of the Department in the IT space is predicated not 
only on the software and hardware that we buy and maintain, but 
equally on the workforce that we employ. The Pentagon cannot 
succeed in this new era if we are not recruiting and retaining 
the very best possible workforce. So I am pleased that the 
workforce is consistently raised as a priority issue and 
flagged as one of the premier lines of effort in the DOD 
[Department of Defense] Cyber Strategy.
    The competition for talent, of course, in this space we 
know is fierce, which is one of the reasons Congress created 
the Cyber Excepted Service [CES], a personnel system built 
specifically to attract top-tier talent with competitive 
salaries. The DOD CIO was designated as the Department's lead 
in crafting this new personnel system. To date, CES has only 
been implemented at U.S. Cyber Command Joint Forces 
Headquarters, DOD Information Networks, and DOD CIO 
Cybersecurity. Today provides us an opportunity to ensure the 
appropriate resources are dedicated to swift implementation 
across the entire Department.
    Finally, I remain concerned about cybersecurity across the 
Department. While we have made significant progress in securing 
the DODIN [Department of Defense Information Network], 
particularly as U.S. Cyber Command matures, the theft of DOD 
data from contractors and the security of weapon systems 
themselves are both challenges that we absolutely have to 
address. Congress has taken steps in recent years to evaluate 
the risk posed by our DIB [defense industrial base] supply 
chain, but I am going to be interested to hear more about how 
the CIO's office is leveraging its position and expertise to 
take more steps to mitigate this risk.
    So, with that, I look forward to hearing from our witnesses 
today about how they are posturing the Department for success. 
And before we go to our witnesses, I would like to now turn it 
over to the ranking member--or the acting ranking member, Mr. 
Scott, for any opening statements that the ranking member may 
have.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 33.]

STATEMENT OF HON. AUSTIN SCOTT, A REPRESENTATIVE FROM GEORGIA, 
     SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Scott. Thank you, Chairman Langevin, and welcome to our 
witnesses here today. Ranking Member Stefanik is delayed due to 
a markup proceeding that is taking place on the Education and 
Labor Committee. I would simply ask that her entire statement 
be entered into the record, and yield back to the chairman so 
we can hear from our witnesses prior to votes. Thank you.
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 35.]
    Mr. Langevin. I would like to turn it over to our 
witnesses. Ms. Hershman, we will start with you. Thank you.

 STATEMENT OF LISA HERSHMAN, ACTING CHIEF MANAGEMENT OFFICER, 
               OFFICE OF THE SECRETARY OF DEFENSE

    Ms. Hershman. Thank you, Chairman Langevin, Ranking Member 
Stefanik, and other members of this subcommittee, for the 
opportunity to testify today on the Department's information 
technology, cybersecurity, and information assurance. I am Lisa 
Hershman, the acting Chief Management Officer. Today, I would 
like to outline my roles, responsibilities, and priorities, the 
Department's aggressive work to reform and modernize business 
operations, and the monumental changes in our management of 
data throughout the enterprise.
    As acting CMO, it is my responsibility to deliver optimized 
business operations to assure the success of the National 
Defense Strategy. This is only made possible by the elevation 
of the CMO as the number three in the Department and the 
increased authorities granted by the National Defense 
Authorization Act [NDAA]. My goal as acting CMO aligns directly 
with the intent of the NDAA, efficiency for lethality, which is 
executed by reforming the Department's business processes, 
systems, and policies, to gain increased effectiveness, higher 
performance, and reprioritized resources.
    Integrity and consistency of every measure is a cornerstone 
of my approach. Working closely with the comptroller and 
military departments, we define standards to reform in 
execution--for reform--and have validated our efforts in the 
budget. Because of this effort, the Department has realized a 
total of $4.7 billion in program savings in fiscal year 2017 
and 2018. However, reforming the business operations of the 
Department must not only be focused on financial savings, but 
also on creating a sustainable impact by establishing a culture 
of continuous improvement focused on results and 
accountability.
    The Department's priorities of reform are based upon the 
fiscal year 2019 NDAA, the President's Management Agenda, the 
senior leader Reform Management Group, and the first DOD-wide 
financial audit. While we execute reform in many areas, IT 
infrastructure, business systems, and data management have some 
of the most significant opportunity for improvement.
    Our current IT and business systems environment is 
extremely complex, with hundreds of business systems, thousands 
of data centers, hundreds of cloud efforts, and thousands of 
applications, in addition to 65 CIOs. It is extremely difficult 
for us to deliver an effective, innovative, or secure IT 
environment. As the CIO for Defense Business Systems, working 
closely with the PCA and the CIO, it is our collective 
responsibility to reverse this environment.
    We are executing business systems reform in three major 
areas: eliminating redundant systems, maximizing shared service 
delivery, and streamlining business operations in areas like 
procurement through category management. Through initiatives in 
these areas, we have already made progress towards simplifying 
the IT landscape, reducing operational costs, and enabling 
business process integration.
    As we execute reform, we remain ever mindful that the goal 
is delivery of secure, relevant, clean data to support business 
decisions, while IT infrastructures and business systems act as 
vehicles by which the data travels.
    I want to personally thank you for supporting the data 
needs of the Department through the NDAA. This law provided CMO 
with the framework to establish common enterprise data and data 
management and analytics as a shared service. To ensure data 
management had the full dedication it requires, I hired the 
Department's first chief data officer, Mr. Michael Conlin.
    As outlined in my implementation plan for common enterprise 
data, we will make decisions based on accurate, timely business 
data as opposed to internal boundaries and past experiences. 
This is a monumental shift in the way the Department conducts 
its business operations, and I am committed to ensuring the 
priority of data management in my role.
    Thank you for the opportunity to outline my roles, 
responsibilities, and priorities, and provide details of our 
work in reforming the Department's IT, business systems, and 
data management. I welcome your questions.
    [The prepared statement of Ms. Hershman can be found in the 
Appendix on page 37.]
    Mr. Langevin. Thank you, Ms. Hershman.
    And now turn it over to Mr. Deasy.

 STATEMENT OF DANA DEASY, CHIEF INFORMATION OFFICER, OFFICE OF 
                    THE SECRETARY OF DEFENSE

    Mr. Deasy. Good afternoon, Mr. Chairman, Ranking Member, 
and members of the subcommittee. Thank you for the opportunity 
to testify before the subcommittee today on the current efforts 
underway pertaining to the Department's information technology 
and cybersecurity. I am Dana Deasy, the Department of Defense 
Chief Information Officer. Today, I would like to highlight key 
areas of the Department's digital modernization, including 
cloud, AI [artificial intelligence], C3 [command, control and 
communications], and cyber, as well as a separate effort on IT 
reform.
    Earlier this month, the Department submitted its cloud 
report and strategy. As stated in that submission, DOD will 
remain a multicloud environment with both general purpose and 
fit-for-purpose clouds as part of our long-term strategy. As I 
have discussed with some of you previously, JEDI is a 
pathfinder, general purpose, enterprise-wide cloud. As part of 
our strategy, JEDI will enable DOD to learn how to implement an 
enterprise cloud solution, taking advantage of economies of 
scale and enhanced data-driven decision making.
    The National Defense Strategy makes clear that the 
character of warfare is changing. Competitors like Russia and 
China are investing heavily in modernization in AI to refine 
the future of warfare. DOD must do the same. The AI strategy 
emphasizes the need to increase speed and agility, which will 
deliver AI-enabled capabilities, the importance of evolving our 
partnerships with industry and academia, and the Department's 
commitment to lead military, ethics, and AI safety. The Joint 
Artificial Intelligence Center [JAIC] is the focal point for 
carrying out the DOD AI strategy. JAIC will accelerate DOD's 
delivery and adoption of AI to achieve our global mission.
    The emergence of digital technologies has introduced new 
challenges to the traditional C3 landscape. In order to take 
advantage of the new digital capabilities and to protect our 
warfighter from corresponding weaknesses, we must modify and 
modernize our C3 systems. In order to facilitate economic 
growth while accounting for national security, DOD CIO, working 
with OUSD(R&E) [Office of the Under Secretary of Defense, 
Research and Engineering] and Federal partners, will play a key 
role in the Department's effort in the implementation of 5G.
    Turning to cyber, DOD released its 2018 Cyber Strategy this 
past September. The Cyber Strategy articulates how DOD 
implements the National Defense Strategy in cyberspace. DOD's 
CIO, working closely with DISA [Defense Information Systems 
Agency] and PCA, implements the DOD Cyber Strategy, in close 
coordination with the military departments and component CIOs. 
DOD CIO and PCA co-lead weekly meetings focused on cyber issues 
with the Deputy Secretary of Defense, military departments, and 
OSD [Office of the Secretary of Defense] principals present.
    The Department has created the Cyber Top Ten, which help us 
to prioritize where and how we apply resources and innovation 
to execute our Cyber Strategy. The Cyber Top Ten focuses on 
remediation strategies for a complex cyber landscape, with 
components ranging from information networks to our cyber 
workforce and supply chain risk management, and beyond.
    DOD CIO works closely with the Protecting Critical 
Technology Task Force to identify technical solutions to 
enhance protection of the defense industrial base. For the 
first time, DOD CIO is reviewing and certifying all IT budgets, 
which includes cyber, across the Department.
    DOD CIO now has the authority to set and enforce IT 
standards across the Department. The Department's cyber 
workforce is critical to our mission success. Authorities 
provided by Congress, such as the Cyber Excepted Service, has 
allowed the Department to adjust existing personnel policies 
and to implement new policies that account for this dynamic 
need in an increasing important mission area. DOD CIO is 
working closely with the CMO to modernize business systems and 
to eliminate legacy networks, infrastructure, and applications.
    In closing, I want to emphasize the importance of our 
partnership with Congress in all areas, but with particular 
focus on digital modernization and IT reform. I look forward to 
continuing to work with Congress in these critical areas. Thank 
you for the opportunity to testify this afternoon, and I do 
look forward to your questions.
    [The prepared statement of Mr. Deasy can be found in the 
Appendix on page 49.]
    Mr. Langevin. Thank you, Director.
    And, General, the floor is now yours.

 STATEMENT OF BGEN DENNIS CRALL, USMC, SENIOR MILITARY ADVISOR 
FOR CYBER POLICY AND DEPUTY PRINCIPAL CYBER ADVISOR, OFFICE OF 
                    THE SECRETARY OF DEFENSE

    General Crall. Thank you, Chairman, Ranking Chairman, and 
members. I appreciate the opportunity to come here and talk to 
you a bit and answer your questions from an implementation or 
outcome side of this equation here in front of you.
    So I am honored to lead the Office of the Principal Cyber 
Advisor's cross-functional team. This was put in motion in NDAA 
language back in 2014, section 932. And while that predates by 
a few years language in the 2017 NDAA, section 911, which gets 
after cross-functional teams writ large and encourages that in 
the Department, I think it meets the vision, or at least I hope 
it does, that Congress was looking at in a cross-functional 
team.
    And I am going to say this with some measured enthusiasm, 
because while I am excited about what I would consider to be 
our launch point and where we are right now, there is a lot of 
really heavy lifting ahead. And the measure of our 
effectiveness is really yet to be proven, but I am optimistic 
that we are going to get to where we need to be. So it is a 
really good start for the team and getting after the strategy 
that was just mentioned.
    So to the point, the cross-functional team is focused on 
outcomes. It doesn't do us a lot of good to have a Cyber 
Strategy or a Posture Review that shows gaps and not really 
have a means to close those gaps and show outcomes and 
improvement. That is what I am focused on 24/7, is the team 
looking at getting the outcomes and implementing the strategy 
and learning from that as we go through our process.
    We are also taking a hard look at our measures of 
effectiveness. I have made comments before that I used to think 
that one of the hardest things to do in this line is to start 
new work. I have learned that it is to stop work that is 
currently in progress. So to make good decisions where maybe 
things have gone past their point of good investments, and the 
Department needs to be more flexible to turn to those things 
which really pay bigger dividends. We are looking at all of 
those.
    So, really, what is the recipe? Just very quickly, what 
makes, I think, our efforts unique this go-around than maybe 
what you have seen in the past. There are only a few 
ingredients, the first of which I would say is we have got 
really good team members. We are allowed to pick them, and they 
come from a good cross-section across the Department. And 
because we are looked at normally as not having a bias, because 
we have so much diversity in background, that we are normally a 
trusted entity that can defuse some of these problems and move 
the Department forward.
    We have got a solid strategy, as Mr. Deasy mentioned. 
Strategies are only good if the lines of effort within them are 
actionable, that you can do them. Not just, you know, 
proclamations or really good statements you can pin to a wall 
or aspire to, but things you can actually measure your progress 
against. We have got a good strategy.
    We also have a very good Posture Review. The gaps that are 
included in there are very honest and allows us to put 
resources against those gaps and really provide substance to 
the way that we are working and moving forward.
    We also bring together all the stakeholders. We are at this 
table for a reason. Work very closely with the DOD CIO, the 
CMO, with CAPE [Cost Assessment and Program Evaluation], the 
Joint Staff, services. These aren't just tangential things or 
passing in the hallways but integrated into our planning 
efforts and daily battle rhythms. So we work just not with each 
other but closely with each other, which I think is important.
    We also have great leadership within DOD. We have got an 
Acting Secretary of Defense who has been laser focused on this 
in his previous role and current role and who is performing the 
duties of the Assistant Secretary of Defense now that are 
really focused on a battle rhythm where we are in front of them 
at least in a formal meeting every other week, going through 
what our scorecards, our outcomes, challenges and successes 
are. So we have very close interest within the Department.
    And lastly, I would say, and certainly not least, is the 
interest here in this body. Congress has done us well to 
establish the cross-functional team and put us on a good glide 
slope to achieve results. So I thank you for the language that 
we have in the NDAA, and also your staffers who are sitting in 
the back. I assure you this: They know what I do as well as I 
know what I do, because they have been in my office spaces, 
they have read through our work, they have seen our product and 
how we are moving forward, and they have been extremely helpful 
at keeping us on path.
    So, with that, I thank you for the opportunity, and look 
forward to taking your questions.
    [The prepared statement of General Crall can be found in 
the Appendix on page 60.]
    Mr. Langevin. Very good. Thank you, General.
    And I thank our witnesses for your testimony. We will now 
go to questions. We are expecting votes around 2:30, so we are 
going to get through as many as we can and then we will recess 
and then we will be coming back.
    As is the case with the full committee, the chair and 
ranking member are not on the clock, but it is up to us to keep 
ourselves in check. After that, we will recognize members 
according to seniority, according to who was here first at 
gavel.
    So, with that, let me start on the Cyber Excepted Service. 
So obviously, we touched on this topic. I am glad you all have 
mentioned it. Congress created the Cyber Excepted Service for 
the Department of Defense to be able to hire a skilled and 
talented cyber workforce. I understand, though, that less than 
five individuals from your office are dedicated to 
implementation of this authority, which is significantly 
delaying utilization of new hiring authorities across the 
Department. So as I noted in my opening statement, the 
workforce is the pinnacle of IT reform, modernization, and 
assurance.
    So, Mr. Deasy, I am going to go to you first. Can you 
please describe the resources your office has dedicated to 
implementation of CES and why not more dedicated--why we have 
more dedicated implementation authority that might be needed?
    Mr. Deasy. So first off, so as General Crall pointed out, 
this is a very important tool set you gave us. I will tell you 
that as I dug into this, this isn't a case of the volume of 
people we need inside of my respective organization or working 
on General Crall's cross-functional team. This is about 
competencies that need to exist in them. This is a new way of 
doing business.
    And, more importantly, the P&R [Personnel and Readiness] 
organization and the respective mil [military] services need to 
train up, I think, at a faster rate the people that they need 
to bring on board to actually accelerate Cyber Excepted 
Service. If you look at where we are today, as you pointed out 
in your opening remarks, U.S. Cyber Command, DISA, DOD CIO 
office is well on its way. Where we need to up the game and up 
the speed is inside the respective mil services.
    Now, General Crall here is living this on the front line 
each and every day, in terms of how we are tackling this, so I 
respectfully would see if he would want to add any comments to 
this.
    General Crall. Thank you, sir.
    I would add, sir, really to the point of your question, in 
our implementation experience thus far, we have identified 
inside the building, and I have a request that we are putting 
together now that will be making its rounds to Mr. Deasy here 
shortly, that asks for some more resourcing inside the building 
to get after unfolding this a bit faster. So that is one area, 
just to be blunt. We could do a little bit better inside the 
building to get after it, and I am articulating what those 
specific needs are. So that is forthcoming.
    The second piece that we are looking at is for all the talk 
in implementation, one area that the Department is focused on 
that, again, we have got to pick up the pace a bit is in how we 
do security clearances. The onboarding process can be very 
frustrating. So while we might have four of the five elements 
of the recipe right in bringing people on, if we can't bring 
them on quickly because they are held up in the security 
clearance process, it is a potential that they lose some 
interest and we don't garner the result we are looking for. So 
there is an effort underway right now to get after both of 
those critical areas.
    Mr. Langevin. I am concerned about the slowdown with the 
security clearance process as well. And I know we are looking 
at alternatives, including using technology as perhaps a pilot 
project to see how the two would compare, using algorithms and 
data analytics to speed that process along more quickly. But I 
share your concern about the clearance process.
    And I will be interested, General, to hear more about the 
resources that are requested to more fully implement the work 
that you are doing.
    Ms. Hershman, has your office been able to utilize CES, and 
what is your perspective?
    Ms. Hershman. We have not to this point, so we don't have 
that perspective yet.
    Mr. Langevin. Why is that?
    Ms. Hershman. We are just actually about 6 weeks into 
managing the business systems piece.
    Mr. Langevin. Okay. Well, we are going to want to follow up 
with you on that and to see the degree you will be able to 
utilize CES.
    To all of our witnesses, I mentioned in my opening 
statement, Congress has enacted major statutory changes 
regarding the position of CIO, CMO, and PCA over the years. How 
are such changes being implemented, and what challenges or 
overlap have been identified?
    Ms. Hershman. So Dana and I have from the very beginning 
worked very closely, primarily from the reform standpoint, but 
we have been able to come to an agreement on how the roles and 
responsibilities are bifurcated. In general, we as CMO manage 
all the business systems and the data pieces of the Department. 
The CIO manages the network.
    If we use a little bit of a visual to describe this, if you 
picture walking into this room, you have lights, you have the 
microphones, you have the monitors that are working. CMO would 
own everything that you would see, the lights down to the plug, 
and then the CIO would manage from the outlet to all the wiring 
that is behind. We also have the data, non-weapon system data, 
but all the business data that feeds in and shares both of the 
organizations.
    So Dana and I have worked closely together. He has been 
part of my Reform Management Group. We also meet regularly in 
one-on-ones to make sure that the roles, responsibilities, and 
so forth are clear. And to date, we are handling any 
exceptions. Not everything is always black and white. One of 
the, I shouldn't say issues, but topics that came up at an 
early point was, I think it was Microsoft Office, and we were 
wondering is that considered more of an application or is that 
more of a business tool.
    So Dana and I work closely with our teams to manage by 
exception. We sit on each other's cross-functional teams. I am 
also a member of the CIO Cyber cross-functional team. They are 
members of our Defense Business Council, which reviews software 
applications and so forth and certifies them in terms of dollar 
and value. We also--I am trying to think on some of the other 
teams. My chief data officer meets regularly with his team. So 
we have formed a good partnership and, to date, haven't had any 
real issues.
    One last thing that I will add that we have done with 
regard to reform, and it is something new that we have done 
with the fiscal year 2019 new year, is that it used to be that 
CMO was seen as the only one who owned reform. And this year, 
because many of my colleagues are responsible for 
implementation, we work closely with colleagues and partners 
like Dana where we share in the metrics and the outcomes of our 
reform efforts.
    So, Dana, I would invite you to add.
    Mr. Deasy. So specifically what I will talk about is the 
new authorities that kicked in as of January 1st this year, two 
types of authorities. One was I am now in a position to 
actually review the entire Department of Defense IT budget, 
which is at $40-plus billion. So we came up with a process this 
year to actually go through and look at the highest priorities, 
which you will hear us talk about today, and to identify where 
there are gaps or where there is full alignment around the 
execution towards that digital modernization strategy. I 
actually issued to the Secretary back at the end of January the 
first ever certified budget for the Department of Defense.
    Second, the other part of that speaks to standards and 
frameworks. And we now have the authority to identify standards 
and frameworks. So far, I will actually say that I think that 
will probably be used by exception. If I have the right working 
relationships and we have the right alignment, my ability to 
have to use that right to actually overrule will hopefully not 
be the norm but will be the exception. To date, I have not had 
to actually execute that authority, as we have strong alignment 
on the digital modernization program activity. But at a point 
where we do need to do that, I will be sure to use that 
authority.
    Mr. Langevin. So the CMO mentioned governing by exception. 
How are we institutionalizing the CMO and CIO roles, 
respectively?
    Mr. Deasy. I will start by saying that what we did was, as 
Ms. Hershman pointed out, there are growing pains any time you 
take activity and you split it across organizations. There is 
friction that occur. So we thought the right way to do this was 
to have our respective organizations sit down and literally map 
out what are all of the areas where you can step on and have 
cross activity.
    We had a working team that went through that, and then at 
the end, she and I respectively signed a memo that describes 
the activity set that is going to be done by my office and the 
activity set that will be done by her office.
    Mr. Langevin. Is that something that you can share with us? 
Would that be appropriate?
    Ms. Hershman. Yes. Actually, we have that going through 
final signature and review now.
    Mr. Langevin. Okay. The thing is, we are really interested 
in to make sure that this all works well together, and that we 
want to get our heads around whether this is, you know, not 
just personality-driven, but it is process-driven, that we have 
this more institutionalized, if you will. So that the next 
people that will be occupying your roles, again, it is not 
personality-driven, but it is actually institutionalized going 
forward, and we take best practice or we take the best out of 
the work that you are doing and make sure that there is 
continuity.
    So I am going to have additional questions, and it looks 
like we are going to votes right now, but I will turn to the 
ranking member for questions, and hopefully we can get through 
her questions and then we will recess after that.
    Ms. Stefanik. Thank you, Chairman Langevin.
    I wanted to build upon your question, and also expand on 
your opening testimony, Ms. Hershman. You very clearly outlined 
the disparate, fractured, and duplicative nature of our current 
IT and business systems environment. We have more than 1,800 
business systems across the portfolio, thousands of data 
centers, hundreds of cloud efforts, some 65 CIOs, and a total 
budget of almost $42 billion per fiscal year.
    With all of these complications in terms of the 
Department's overall strategy to reform this area, what does 
this need to look like 5 years from now? And equally as 
important, how do you intend to get there?
    Ms. Hershman. What it is to look like 5 years from now is 
actually very difficult to project, only because of the 
changing nature of both technology and how we do business. What 
we all can agree on is that this needs to be less complicated 
so it is easier to manage, not only from a--you know, from 
using the systems within the organization, but also to ensure 
that data that flows through these multiple systems is also 
properly protected.
    So one of the things that we have done is certainly align 
these initiatives with how it supports our National Defense 
Strategy. We also, from a reform perspective, are looking at 
what will create the biggest impact, create the greatest value, 
and what is the timing? In fact, some of these initiatives, we 
are taking a very different approach, in that we are not 
necessarily waiting all the way to the end of the project to 
produce results. We are actually taking iterative, prototype, 
minimum viable product type approaches to start deliver and 
test as we continue to go through the program or the project.
    So we also have used--I was a--the CMO was a cosponsor for 
the comptroller's audit. We are using audit findings to also 
help inform reform. So those are just some examples of how we 
are collectively looking at what is most important, where are 
our biggest risks, what are our biggest vulnerabilities, and 
how can we mitigate or solve those problems, and are ordering 
or reordering our initiatives accordingly.
    Ms. Stefanik. Let me ask you about the efficiencies and 
cost savings that you talked about. Do you expect the cost of a 
modernized and efficient IT and cyber budget to remain at 
approximately $42 billion per year?
    Ms. Hershman. It is difficult to answer that question on 
the expectations for the budget, only because we are working 
with what we know now, and there are always new opportunities 
or new issues that could pop up. So I can't really speak to the 
budget and cost.
    Ms. Stefanik. Okay. And my final follow-up. Mr. Deasy, do 
you have anything to add? I would like to get your perspective 
on what this needs to look like 5 years from now. How do we get 
there? And the budget question, in terms of do we anticipate 
this costing $42 billion per year?
    Mr. Deasy. Yeah. I would say that if we look at the 
emergent technologies, such as cloud, AI, modernization of C3, 
and what we are going to have to do to secure the Department of 
Defense, I think the question really is one of are we getting 
the most out of every dollar, not if $42 billion is right. It 
may be in the future that the Department of Defense budget, 
from an IT standpoint, actually needs to go up for what it 
needs to do for the business. To me, the real question is, are 
we getting the most out of every dollar? So that I would say is 
kind of part one to your question.
    Two, what does the world look like in the future? I 
envision it a world where every new application will be cloud 
first. When we are going to look at consolidation of business 
systems, we will take the opportunity as we migrate on the 
cloud to do standardization and consolidation of business 
systems. We will use that opportunity to start using data 
management in a much more joined-up common way. And we will use 
things like AI robotics to actually help us deliver a much more 
efficient--back to my first question of how do you deliver a 
much more efficient budget.
    Ms. Stefanik. Thank you. I yield back.
    Mr. Langevin. Okay. So votes have been called. We will 
recess until about 5 minutes or so after votes.
    So, with that, the subcommittee stands in recess.
    [Recess.]
    Mr. Langevin. The committee will come to order.
    Again, I want to thank our witnesses for testifying here 
today. Sorry for the delay getting restarted, but we are going 
to go now.
    The gentlelady from Pennsylvania, Ms. Houlahan, is 
recognized for 5 minutes.
    Ms. Houlahan. Thank you, Mr. Chairman.
    Thank you so much to all of you for coming. I have a few 
questions for you. The first one is to Ms. Hershman. I was 
wondering a little bit about the capabilities of our domestic 
manufacturing. Twenty percent of our memory chips are only made 
in this country and the rest come from international sources. 
And I was wondering if you had any concerns that we need an 
organic source, a domestic source of these kinds of manufacture 
of these kinds of chips, to make sure that we are secure with 
the work that you do and also for business in general.
    Ms. Hershman. I would say, in general, we share your 
concerns. However, my role does not deal with that directly, so 
I will defer to Mr. Deasy or Mr. Crall.
    Ms. Houlahan. Thank you.
    Mr. Deasy. So do I believe that we need a domestic supply 
chain for key chip? Absolutely. All you have to do is look at 
things like 5G. And the need to have an industrial base in the 
U.S. where we can get secure technologies such as what you are 
referring to is something I think we need to focus more on, 
yes.
    General Crall. Ma'am, I wouldn't add any more to that.
    Ms. Houlahan. So the following question is, what sort of 
legislative help can we as a Congress provide to you so that we 
can enable that to happen?
    Mr. Deasy. I would tell you, I am not sure I am the right 
expert, being the CIO, to tell you what the policy requirements 
and how best that we legislate that. I would be happy to get 
the people engaged inside the Pentagon that would be best able 
to address that particular question.
    Ms. Houlahan. Thank you. My next question has to do with 
small businesses. In addition to being a veteran, I am also an 
entrepreneur. And we know that small businesses play a really 
critical part in our defense industrial complex, and they are 
obviously mostly supply chain-related in most cases. And they 
are largely fairly inadequately prepared to deal with issues of 
cybersecurity as they are growing or starting up.
    And so my question is, how is the Department working with 
entities like small businesses and up and down the supply chain 
to make sure that cybersecurity practices and IT systems are 
protected from the threats that we know exist and that larger 
companies are capable of handling?
    Mr. Deasy. So I share this concern. When we start talking 
about small businesses at what I will call tier two, tier three 
down in the supply chain, they don't have the wherewithal, the 
financial wherewithal, nor the knowledge domain expertise 
wherewithal at the sophistication levels of tier one.
    A couple things that we are looking at in this space is, 
one is how do we use the NIST [National Institute of Standards 
and Technology] Framework and how do we take that framework to 
help educate the tier two and tier three in a way that is more 
effective for them to use. Two is, I am a firm believer in that 
we need to develop an independent standard, kind of like what 
we have for CMMI [Capability Maturity Model Integration] for 
development or ISO [International Organization for 
Standardization] 9000 for quality. I think this needs to be 
developed. I think if we could get this developed in this 
country, this would actually help better educate and focus 
small business on the talent they would then need to hire.
    I think the last thing is we are looking at how do we use 
technology that we are starting to put in place maybe at cloud 
technology that would allow us, instead of passing data to them 
and then them having to secure it, how could we keep the data 
on our own premises and they could connect into it. So that is 
another thing that we are evaluating.
    Ms. Houlahan. Excellent. Thank you very much.
    And the last question I have is that my understanding from 
our briefings here and then also at the NSA [National Security 
Agency] is one of the biggest vulnerabilities for all of us 
employees, regardless of where we work, is spear-phishing 
attacks. And I am wondering what you have done to make sure 
that you are holding people accountable, if you are holding 
people accountable, for these kind of mistakes; and are there 
any practices that we can adopt from the accountability for 
individuals--are there best practices that we can adopt from 
accountability from individuals that you have found effective?
    Mr. Deasy. Yeah, I will be happy to take that. So coming 
from private industry, one of the stats that we know exists out 
there is if you look at all the vulnerabilities that get 
created, both inside government as well as private industry, it 
is human error still tends to be the number one cause of the 
vulnerabilities. And at the top of that list is spear phishing 
or just general phishing.
    To that end, I think best practices that I have seen in 
private industry have been around training programs where you 
actually create test-phishing campaigns. You use those. You 
actually then phish a set of employee base that you want to 
start with. And it is real time, because what comes back to 
them is the fact that they have just been phished. They get 
educated in real time on what they are seeing in that email 
that would have shown them the attributes of what a phishing 
looks like. And then you follow through with a round two, and 
you reach a point where if someone continues to fail, then you 
take other actions, which would include increased training.
    Ms. Houlahan. Wonderful. Thank you.
    I yield back. Thank you.
    Mr. Langevin. I thank the gentlelady.
    Mr. Scott is now recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And I appreciate the Department's total force perspective 
and using all facets of civilian and military forces to get 
ahead of our adversaries. We have granted new hiring 
authorities for Cyber Excepted Services, direct hire authority, 
and pay adjustments in salaries.
    How far are we along with the implementation of this? And 
are there other barriers that are holding you back from 
recruiting and training the right people? If so, how do we 
intend to overcome these barriers? How are you working with 
universities, ROTC [Reserve Officers' Training Corps] programs 
to create a conduit of new talent for this career field? And 
what additional resources do you need from Congress in the way 
of either language in the National Defense Authorization Act or 
other forms of legislation to assist you in this field?
    General Crall. Sir, I would be glad to take that question. 
And I appreciate the scope that you just framed that, because 
those are really kind of a mixed bag for us on areas that I 
would say--and I will cover them--that I think we are doing 
better in some and not so well in others.
    So I would like to take a look at really our target 
audience. The Department--and I have testified on this before, 
that the Department has to do a better job, and we are looking 
at ways to ensure we understand the market properly. In many 
cases, we think we know where we should be recruiting, and we 
may not be recruiting to the level that we should.
    So understanding the type of applicant that we are 
searching for and the needs of those applicants, we need to 
bolster our understanding a little bit better. So we are 
looking at a way to kind of package that.
    I think your comments are spot on on internships, for 
example. We do too few of them. Academia has proven their 
willingness to work with us, and as a department, we have just 
got to really take advantage of those where it makes sense. We 
have several of these near our bases that would be attractants 
to these things, and we are still underutilized.
    I think on the ROTC front, we are doing a little bit 
better. And I realize that may not be a detailed or satisfying 
enough answer, but we are addressing that. And I talk to the 
services about how they run their programs, and it is clearly 
an area of interest in the college environment.
    But the last piece I would say is our biggest challenge, 
and we have covered this a little bit earlier today and I would 
just reemphasize it. Rolling this out at a level that is 
sufficient I think is a fair criticism where the Department has 
to do better. So the phase one of the Cyber Excepted Service 
was modest by design of under about 500 billets that we put 
out, to make sure that we knew what we were doing. Were we 
trained properly? Could we track those individuals properly?
    And you are right, Congress has given us a lot of 
enhancements, from pay to direct hire, et cetera. This next 
phase, which we are in right now, is going to bring that 
exponentially higher in number. And the resources in the 
building are lacking for us to both internally and then at the 
service level to make sure we can handle that workload, and we 
are addressing it.
    Mr. Scott. And when you say resources, do you mean money? 
Do you mean physical resources?
    General Crall. People, sir.
    Mr. Scott. People.
    General Crall. Which could be viewed as money.
    Mr. Scott. Sure. Yes.
    General Crall. But looking at people, to dedicate the right 
number and the mix to get after this at scale. And that scale 
has to change for us to meet pace.
    Mr. Scott. Okay. Anybody else like to comment on that?
    Mr. Deasy. So having spent most of my career in private 
industry, I would say that one of the problems is a whole-of-
government issue we have to address, and that is most cyber 
people never come across government in their career. They just 
don't touch it. They don't intersect with government. What does 
that mean? That means when they are thinking about progressing 
their career and taking that next step, they don't stop to have 
a conversation with themselves saying, well, what about an 
opportunity of doing a career inside of government?
    And I think that is one of the things that we in the DOD 
need to step up and address, but I think others are going to 
need to address as well is, how do we create exposure that even 
lets the average person in private industry even know what the 
opportunities could look like for them in government? Because 
once we do bring these people in and we expose them to the 
mission, they get pretty excited about it, but it is how do we 
create a better avenue of awareness I think is part of what we 
have to address.
    Mr. Scott. I have only got about 30 seconds left, but you 
brought something up on the periphery of it has been on my 
mind. This issue where several employees of a company that we 
contract with did not want to push forward with the contract 
because it was a DOD contract.
    I am very concerned about how few companies there are out 
there that are actually good in these fields that we are 
talking about. And when you have a small group of select 
employees, their ability to create problems with that contract 
and their perception of DOD I think is very wrong. I mean, it 
was the Department of Defense that went to Africa when we had 
the outbreaks of potentially contagious diseases. I mean, we 
are in the business of helping people.
    And I do hope that--I know you are paying attention to it 
and interested in further conversations about the private 
sector and the challenges there with select groups who do not 
want to work with us. But thank you for your time.
    Mr. Langevin. Thank you, Mr. Scott.
    Before I go to Mrs. Trahan, General, if I could just follow 
up with you on Mr. Scott's question. You answered and you 
talked about resources you need, and you said people. Can you 
help the committee understand the amount of people we are 
talking about in numbers? Is it 10? Is it 50? Is it 100? 
Ballpark it for us. Not to hold you to that, but we are trying 
to get our arms around this as well, and your perspective would 
be helpful.
    General Crall. Yes, sir. So my evidence behind my number I 
am just going to admit is a bit sketchy. But to do service to 
your question, the Department had looked at having between five 
or six people full time to do the initial planning and rollout, 
which, again, was kind of modest.
    So my ballpark estimation would be at least that number of 
5 or 6 and likely something closer to the order of 10 
internally if we are dealing with thousands that need to be, 
you know, brought in and the training that is required, because 
they have to travel to some of these places to make sure that 
training takes place and it is understood well. So that would 
be my ballpark estimate, sir.
    Mr. Langevin. That doesn't seem like a significant increase 
over what--so that seems to be eminently doable. You are 
talking about an additional number of people that are needed?
    General Crall. It does seem that way, yes, sir.
    Mr. Langevin. So which office needs to provide those 
resources?
    General Crall. Sir, I think that would come across several 
offices potentially to do that. And I am not an expert, but I 
think the requirement for that that I am piecing together, I am 
trying to answer that question now to submit to Mr. Deasy. So 
to be fair, he hasn't received my request, but I think that 
will rest with him eventually, and we will have to look within 
the Department as to where the resources come to get those 
hirees.
    Mr. Langevin. Okay. I appreciate it. Your candor is very 
helpful and it helps us to understand the scope of the 
challenge and what we need to do to get this right.
    With that, let me recognize Mrs. Trahan from Massachusetts 
for 5 minutes.
    Mrs. Trahan. Thank you, Mr. Chairman. Thank you.
    You mentioned the opportunity in government and how some 
folks in the private sector don't even entertain that 
possibility. Given the recent shutdown, what is the value 
proposition? What is the--how are we going to attract and 
retain the best and the brightest from everything from MIT 
[Massachusetts Institute of Technology] to competitive 
community colleges to help us tackle this problem?
    Mr. Deasy. So it is clearly the mission. And let me bring 
it to life through an example. We run a yearly competition 
where universities compete on a cyber challenge, and then we 
bring the winning university in for a day into the Department 
of Defense. And in that, they get a chance to meet with my 
office. They get a chance to meet with several of the 
principals, the COCOMs [unified combatant commands], the 
military side. And by the end of this day, every single one of 
them says the same thing: I had no idea just how amazing it 
could be to do this sort of work if I had not had the 
opportunity to come in and spend a day and just get exposed and 
talk to people and hear firsthand from the people out in the 
field why cyber matters.
    So I cannot stress the importance enough for a lot of young 
people if they never get exposure, they never talk to someone 
in uniform, they are just not going to put in the forefront of 
their mind coming and working for the DOD.
    Mrs. Trahan. That is helpful. And are these employees that 
we are attracting, do they have that label essential/
nonessential associated with them? How would they be affected 
by a potential shutdown, for example?
    Mr. Deasy. I am not sure I could--I would have to look into 
the specific nature of how they are classified and come back 
and answer that.
    Mrs. Trahan. That is great. I am interested in knowing what 
the consequences are when we shut down the government, how that 
is actually going to affect our cybersecurity strategy.
    But I will shift gears. The success of our--I believe I 
just read something where you were quoted, Mr. Deasy, that the 
success of our AI initiatives relies on robust relationships 
with industry, with our allies, certainly with academia, to 
meet the needs of speed and agility specifically. What role do 
our allies play in that?
    Mr. Deasy. So interesting enough, I just had a conversation 
with our Five Eyes CIOs just yesterday on this very topic. I 
would say, right now, we are clearly in the leadership role. 
And I think the biggest role that we are going to play is help 
to educate them and help them to understand what it took for us 
as a Department of Defense to establish a Joint Artificial 
[Intelligence] Center capability, as they are all looking to 
establish a like capability. So I think our role will be one of 
leadership and how we went about doing this.
    Mrs. Trahan. Great. Thank you.
    I yield back.
    Mr. Langevin. Thank you, Mrs. Trahan.
    I recognize Mr. Waltz now for 5 minutes.
    Mr. Waltz. Thank you, Mr. Chairman.
    I just wanted to thank you all for coming, by the way. And, 
General, I wanted to pick up, or, Mr. Deasy, on your comment 
about human capital and the challenges that you are having with 
human capital. What role do you see the Guard and Reserve 
playing in there?
    It seems to me if there is any entity that flows back and 
forth between civilian and uniformed or even government 
service, it would be the Guard and the Reserve that can kind 
of, one, stay current on the civilian side as technology paces 
so quickly, but then flow back in as they come in and off of 
orders. Where do they fit in the broader strategy?
    General Crall. Sir, you know, the question is timely. We 
just had a chance to take the team down to Augusta, Georgia, 
and talk to a lot of the units that are down there that are 
practicing this. And the Guard and Reserve is really a staple 
of the conversation, not an add-on. So a lot of the Guard and 
Reserve units are extremely active, very competent, cutting-
edge technology trained, and a very integral part of what we 
do.
    So I can't comment onto the adequacy, you know, if we are 
doing enough or not enough, but I know that many of those Guard 
units have quite a bit of operational time under their belt as 
well. So very proficient, very impressive. And we use them 
regularly, not just in their activated time periods, but in 
their civilian period as well.
    And I would admit, I don't believe that is limited just to 
cyber. I think that is pretty common. In my, you know, noncyber 
experience in the Marine Corps, we have been augmented in 
almost every MOS [military occupational specialty] that I can 
think of by Guard units and Reserve units who have performed 
brilliantly.
    Mr. Waltz. Fair enough. But I would think that it would be 
quite unique to cyber, right, or at least the technology field, 
right? So you could have where that civilian skill set then is 
so--I can't think of anywhere else that on the civilian side is 
outpacing the military from a technological standpoint.
    General Crall. Well, maybe, sir, because here is an area 
where it depends on what kind of mission we are talking about. 
So if we are talking about defensive missions and those 
individuals have experience doing kind of our protection type 
of work possibly. On the offensive side, I would argue that I 
think within the military, that capability, it is really the 
only legal place you could do some of that work. And that 
allure is there. So it would depend on the skill set.
    Mr. Waltz. Fair enough. Switching gears to JEDI, and 
apologies if you have already answered some questions along 
these lines, but just talk to me about how critical JEDI is. 
How critical is the success of JEDI and other DOD enterprise 
cloud initiatives in supporting future AI?
    And along those lines, then what are the--I am assuming you 
are going to say it is critical and you are going to tell me 
how critical. But then what are the drivers or delays to 
implementations, and what are we losing as implementation is 
delayed?
    Mr. Deasy. So not specific to JEDI, but just what are the 
critical benefits. So what is the problem set we are trying to 
solve for inside the Department of Defense? Number one is if 
you look at what it takes today to stand up compute capability 
from the time that a service or a COCOM sees a need to the time 
that you bring the assets inside the Department, test them, 
stand them up, make them operational, that is a multi-month 
period.
    Benefit number one of cloud is the ability to purpose and 
stand up compute capability in literally hours. So you solve 
for how do you solve for episodic needs where you need to stand 
up compute capability. That is very important, as you can 
imagine, to the Department.
    Two is when we build capability today inside the 
Department, we always have to think about peak need. So you buy 
enough necessary hardware for that peak capacity. The second 
beauty of cloud is called elasticity. You ramp up and scale 
more compute as you need it; and as you don't need it, you can 
scale it down, and it happens in real time.
    The third one is resiliency. The idea with the cloud is 
that if you write your application from day one to be cloud 
native, you get built-in resiliency. As it finds itself in an 
unhealthy condition or as it finds itself needing to use other 
resources, it has the intelligence to do that. In a world where 
we can't have a not fail mission set, the resiliency, as you 
can imagine, becomes mission-critical.
    Mr. Waltz. What are we losing as this moves forward? I 
mean, I understand the process is moving forward, and----
    Mr. Deasy. Yeah.
    Mr. Waltz [continuing]. You are not going to get into 
protests and, you know, all of the industry issues.
    Mr. Deasy. No.
    Mr. Waltz. But what are we losing as this----
    Mr. Deasy. The biggest thing we are losing right now is--
the Department of Defense needs to bring data and integration 
together. It has been a constant conversation; it is not a new 
conversation. Our enterprise cloud, for the first time, allows 
us to establish a common platform where we can bring data 
together in a common way.
    What will happen is, the longer we delay standing up a JEDI 
capability, you are going to--the military services are going 
to need to go solve for mission sets, and they are going to 
continue to stand up in their own individual environments. And 
I don't see that as being beneficial over the long term to the 
Department.
    Mr. Waltz. Thank you, Mr. Chairman. I have exceeded my 
time.
    Mr. Langevin. Okay. Thank you, Mr. Waltz.
    We are going to go to a second round of questions now.
    So, following up on the JEDI issue, obviously this is a big 
deal for the Department, something Congress is following very 
closely. I have been frustrated that we haven't moved it along 
more quickly.
    But, Mr. Deasy, just last week, news reports emerged about 
a potential conflict of interest related to the JEDI program. 
It would be an understatement to say that I was frustrated that 
the subcommittee and our staff had to learn about the 
development, from what we understand, through a presser rather 
than from Department staff.
    You know, given the significant congressional attention to 
the effort of ensuring that the transition of cloud is 
successful, we really do expect and anticipate better 
communication from the Department moving forward on this issue. 
And I wanted to ask for your commitment to improving 
communication with Congress to prevent a surprise issue like 
this happening again.
    Mr. Deasy. Absolutely.
    I will take it that I did not get back to you in as timely 
of a way as we should have. We were walking a very fine line 
between an ongoing conversation with the Department of Justice 
around what we could say and we couldn't say. We got the 
clarity on a certain day this last week, and as soon as I got 
that clarity, I called.
    We did put a holding statement out to the press, but I 
wanted to be able to share with further clarity beyond the 
holding statement with you. And that is what I was waiting to 
get from the Department of Justice.
    Mr. Langevin. Okay. Well, good communication and----
    Mr. Deasy. Absolutely important.
    Mr. Langevin [continuing]. Timeliness is essential. And I 
would appreciate your commitment to doing that.
    So, on this topic, again, the Department recently 
identified more than 300 cloud initiatives across the 
Department. So how does JEDI relate to those initiatives?
    Mr. Deasy. We believe that inside those 300 initiatives are 
what I will call general purpose cloud computing, meaning that 
many of those initiatives do not need what I will call a unique 
cloud stack but they can be best served through something 
referred to as JEDI. And then we have some that sit inside 
there that are truly going to need what we call fit-for-purpose 
or unique cloud capability.
    Until we can get a direct line of sight as to how soon we 
will be able to stand up a general purpose cloud capability, 
obviously, the cloud initiatives need to continue. As soon as 
we know within line of sight of what I will say is probably 
within 60 days of when we think we will actually be able to go 
live, then we will be able to go back to some of the early 
portions of those cloud initiatives, where they are still in 
the early days, and redirect them. That is our intent.
    So the fine line we are walking right now is not to impede 
the need for mission success where people are standing up on 
the cloud, but as soon as we can provide clarity to the DOD on 
when the enterprise cloud will be available, to then redirect 
those activities onto JEDI.
    Mr. Langevin. So your best guess in, you know, the world of 
cloud, what percentage do you think are unique, specific to 
each of the departments, and what are more common, what 
percentage is going to be more common in cloud?
    Mr. Deasy. Yeah, the way I like to have this conversation 
is, it depends if we are talking legacy or what I like to refer 
to as brownfield or if you are talking greenfield, new 
applications that need to be written.
    I am a strong believer that the vast majority, probably 85, 
90 percent, of all things in the future that we were to build 
could go onto either a fit-for-purpose or a general purpose 
cloud.
    So then that begs the question, what about the world of all 
the applications you have today? Many of those applications, 
just the sheer cost and the magnitude of lifting them and 
reporting them onto the cloud would be cost-prohibitive, would 
be time-prohibitive, and would probably not serve the 
Department well.
    So what you really have to do is you have to then go 
through your legacy estate based on the cloud we are eventually 
going to stand up--and that is actually a key statement--based 
on what it is we are going to stand up, and then be able to 
start targeting what would the services look to do what is 
called a report, where they are going to rewrite the 
application, or a lift and shift, where they are going to take 
the application and bring it over as is and put it onto the 
cloud.
    So there are various ways we can move over. But the big 
thing hanging out there right now is, until we know what that 
architecture in that cloud is going to look like, it is very 
difficult to start estimation exercises.
    Mr. Langevin. Okay.
    And, Ms. Hershman, from your perspective on business 
systems, what capabilities will JEDI bring to reform? And how 
does the chief data officer you recently hired intend to 
utilize JEDI, and how is he working with the CIO on data 
management?
    Ms. Hershman. So, yes, sir, that it does have a big impact 
on what we are doing in CMOs. Mr. Deasy explained that it has 
an interrelationship with data.
    So Mr. Conlin, our chief data officer, does work with Mr. 
Deasy and his team. We were very fortunate in that Mr. Conlin 
comes from industry and also has a cyber background, which 
makes him a very unique find.
    What I also am struggling with, similar to my colleagues 
here, is those hiring authorities. While previously, before the 
business systems role, we had not looked purely at IT but just 
from a data management standpoint, we too have difficulty with 
the hiring.
    There isn't--there are two--actually, there are two pieces 
to that. Number one is there isn't a single data scientist 
position description anywhere in government. So that is one 
thing that we need to refine and improve. We have also come 
under some challenges with hiring data scientists. All of 
industry is also looking for the same talent type.
    So, while previously you asked me about the CES, we were 
looking more to align with hiring authority and the 
compensation freedom that an organization like DARPA [Defense 
Advanced Research Projects Agency] is able to have, which is 
why we are now looking at the CES to see if that applies to us.
    So both from a reform standpoint and also to be able to 
support JEDI and what we need to contribute from a data 
standpoint, those resources are becoming very critical.
    And just to anticipate what you had asked General Crall 
earlier as well, when we are talking numbers, we are also 
looking for just single digits.
    Mr. Langevin. Okay. Good to know. That is helpful for us to 
understand. Thank you for that.
    The last question that I will have, and then I want to turn 
to the ranking member. General Crall, from your perspective, 
how would JEDI improve or impact cybersecurity efforts? And 
will cyber protection teams [CPTs] have the appropriate 
accesses to a commercial cloud if there is a security issue?
    General Crall. Yes, sir. I think, one, I am probably not 
best suited to talk about the CPT's accesses. I think U.S. 
Cyber Command would be in a better position to do that. And I 
can certainly take that back, sir, to give you a--to have them 
respond with a direct answer to the question.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Langevin. Okay. So how do you, in your work, interact 
with the cyber protection teams?
    General Crall. So I would say maybe the first part of your 
question talked about my work and how JEDI might impact that 
would be maybe a more appropriate question for me to answer, 
sir. And I will start with that and then come back to the 
second piece, if you are amenable to that.
    Mr. Langevin. Sure. Yes.
    General Crall. What I think would be a real help to us, 
when we start looking at how applications behave and what it 
means to get an authority to operate on the distant end, how do 
you move something through the system from design so that, 
secure and hosted, it really streamlines the ability and 
implementation in our strategy to get to our end state much 
faster.
    We spend a lot of time at the service level doing some 
activities that are less than desirable, somewhat antiquated, 
and expensive to try and make up for what a cloud environment 
could provide us. So from a security implementer, for pieces of 
that cybersecurity strategy, that is a game changer for us.
    Mr. Langevin. Very good. Thank you. And then the other part 
of it?
    General Crall. Yes, sir. I think I would like to come back 
to you, again, on the CPT.
    And my work specifically with CPTs, I am part of a team in 
a composite that looks at readiness. So when we start looking 
at readiness levels across the Department, that really has been 
my focus on both CMTs [combat mission teams] and CPTs, as Cyber 
Command continues to drive at setting those standards. We take 
a look at translating those standards into the way that we can 
evaluate those teams against those readiness metrics.
    So I play a small role in that process within the 
Department to ensure those standards are clear, published, and 
we are driving to them.
    Mr. Langevin. Fair enough. Thank you.
    I now yield to the ranking member for as much time as she 
may consume.
    Ms. Stefanik. Thank you.
    General Crall, can you expand upon DOD's top 10 cyber 
priorities from the Cyber Strategy? I know we have an unclass 
[unclassified] slide here that I don't think we have gone over 
today.
    And then if you could answer, which of the priorities do 
you anticipate will be the most difficult?
    [The slide referred to is for official use only and 
retained in the committee files.]
    General Crall. Yes, ma'am.
    So the cartoon graphic that you have in front of you really 
kind of lays out the areas that do have our focus. And maybe 
the takeaway from this is, I understand it is imperfect, right? 
It is two-dimensional. It is meant to be read linearly, maybe 
left to right, when, in fact, some of these things appear in 
many parts of our network. But it is just a simple way to frame 
what we are talking about.
    If you look at the gold box of network and information-
sharing, that is where some of the immediate efforts we have, 
even here in fiscal year 2019. And those callout boxes in gray 
and blue describe in the areas of endpoint management, 
identity, our enterprise development operations, and our cyber 
workforce where they have the attention of the Department.
    So the way that we are looking at this--and maybe the 
takeaway is, if you pressurize one set of this or if you try 
and handle security or effectiveness or functionality in one 
end, then you depressurize something else, and that is where 
your risk is going to come. So it is important that we look at 
this holistically.
    And I will say, the CIO is certainly geared to describe 
that relationship as he is driving this as an enterprise to 
make sure that we are paying attention to every one of these 
parts.
    To answer your second question about what do you think is 
the most difficult, I would answer ``yes'' to that question. 
There is nothing easy on this slide at all. And maybe to take a 
look at maybe increasing levels of difficulty, I will say that 
scale and scope of some of these are really daunting tasks. So 
I wouldn't want to pick any out in particular.
    But I know the members are very familiar with 1647 and 
1650, weapons systems and critical infrastructure. That is a 
pretty big lift in the Department.
    Having to modernize our encryption, that is a very heavy 
lift that is extremely complicated that not only goes to the 
central repository of how that encryption is designed and 
disseminated but all the way to the tactical devices that we 
use on the battlefield. So it is a wide, very complex problem.
    Position, navigation, and timing, again, would be another 
challenge.
    Those things that appear to the right-hand side, that 
tactical edge, probably affect the force in volumes and ways 
that we are still getting our arms around.
    I don't know if that is a satisfying answer, ma'am. But 
that is what I----
    Ms. Stefanik. It is helpful to outline a little bit the 
thinking behind this slide. I think the other members of the 
committee, we will share that with them.
    My next question is for Mr. Deasy.
    Can you provide this committee with specific updates and 
specific initiatives from the Joint AI Center--in particular, 
the national mission initiatives and also added component 
mission initiatives?
    Mr. Deasy. So, as you know, we received towards the end of 
last year our initial funding to stand up JAIC. We now have our 
initial billets in from the services side as well as the 
civilian side.
    We have identified two national mission initiatives right 
now. One of them is in the predictive maintenance space, and 
one is in the humanitarian space. So let me take you through 
each of those.
    What we were looking for when we talk about a national 
mission initiative is something that touches all services, a 
common problem they are looking to solve for, and, most 
importantly when it comes to AI, access to data that is 
meaningfully available. Because if you think about AI, AI needs 
data. You are ingesting that data, and then you are running it 
through a machine-learning algorithm, and then you are coming 
out with, hopefully, an operational output.
    Predictive maintenance was, if you think of the amount of 
money we spend inside the Department of Defense just on 
maintenance, we broke out maintenance and we said: Aircraft, 
significant amount.
    We said, what is an asset that we are using that all 
services use that have common problems with maintenance? We 
looked at the Black Hawk, the UH-60 [medium utility 
helicopter]. And what we found was, if you look at engine wear 
in conditions where there is a great deal of sand out in desert 
conditions, that turns to glass. And so what if we could do a 
predictive analytics to go in, teach a machine to look at all 
that sensor data coming off of those vehicles, and be able to 
start to predict in advance of when the glass condition is 
occurring so you could actually repair it in advance?
    So that is the one we are working on right now. That is the 
first NMI [national mission initiative] on the predictive 
maintenance side.
    The second one, the humanitarian side, was we wanted to 
look at one that had a whole-of-government where we could take 
a leadership in. And we said there was two significant 
conditions that are occurring. One was if you look at the 
hurricanes we had this past year, and one was if you look at 
the wildfires that occurred out in California. So let's take 
each of those.
    On the wildfire one, what is the problem you are trying to 
solve there? You are trying to solve for the fire line, where 
it exists. And what if you could take imagery instead of the 
human asset having to go out, visually look at the fire line, 
but actually use artificial intelligence to look at the fire 
line, determine where it is moving, and be able to overlay that 
onto a handheld device that a firefighter is using?
    Hurricanes. The other example there is hurricanes cover a 
large, vast area. So can we use imagery over a large, vast area 
to determine where the flooding is occurring, how high the 
flood waters are, and whether there is human risk space or 
other types of assets in a risk space? So, once again, we are 
going to use the imagery data to be able to look at risk space.
    Why are those both important to us? Because the algorithms 
that we will develop to intelligently learn fire lines are the 
algorithms we will develop to intelligently learn a better way 
of looking at flood, is we will be able to apply that to other 
mission sets inside the Department of Defense.
    That is the value of JAIC. The value of JAIC is to take 
those algorithms that are developed for purpose A and then be 
able to reapply them elsewhere inside the Department of 
Defense. So we think we will be able to reapply those 
algorithms elsewhere.
    Ms. Stefanik. So just to follow up on the reapplication of 
those two national mission initiatives, you know, one of my 
greatest concerns when we think about emerging threats is 
China's investment in AI capabilities and China's investment in 
data, that this is a strategic priority.
    My question is, do you believe that those two identified 
national mission initiatives will ensure that we not just keep 
pace with how China is investing in AI but we will be able to 
catapult how we are approaching AI not just from DOD but from a 
whole-of-government approach?
    Because my concern is that, while those are two very 
important issues--predictive maintenance and humanitarian 
assistance--that scope is quite limited when you look at the 
scope of China's investment utilizing AI for part of its 
defense strategy.
    Mr. Deasy. So, of course, those in themselves aren't going 
to solve for what you are bringing up. We are going to need a 
series of national mission initiatives.
    As I pointed out, we just literally started this up in late 
December, and here we are now in February. I think the fact 
that we have been able to stand up an initial set of billets 
with two NMIs in approximately 60 days says volumes to just how 
smart and quickly we are working this.
    But to your very point, we are going to need a number of 
national mission initiatives in different areas.
    I think part of the thing that you are probably getting at 
is also vis-a-vis where China is; you know, do we have the 
ability to outpace them. I think Dr. Portis said it best in a 
testimony that I did with her recently. China may be at a level 
of investment where we compare to ourselves as quite 
significantly higher, but if you look at the vast talent, the 
U.S. still holds the majority of the talent when it comes to 
AI. And what we have to do is we have to learn how to quickly 
leverage and bring that talent in.
    Which is why I am so passionate about the need that JAIC 
has to connect to the academia world and to the private-sector 
world. Because our success is going to require those 
partnerships to go well beyond two NMIs.
    Ms. Stefanik. And another question regarding the JAIC. In 
previous testimony, we have heard about the hundreds of AI 
initiatives with the DOD. How, specifically, are those 
individual AI missions or initiatives being integrated into the 
overall strategy from the JAIC?
    Mr. Deasy. Right now, there is not a significant amount 
going on inside of JAIC to integrate those individual projects. 
Where that integration will take place--and it goes back to Mr. 
Waltz's question earlier--is going to be how do we stand up an 
enterprise cloud capability where all of those individual 
projects can benefit.
    Cloud itself does not do a whole lot; it is what you put on 
top of it that matters. And what we need to put onto that cloud 
is data. And data is what is going to drive the success of a 
lot of our AI initiatives across the Department of Defense.
    I have been asked many times what will slow us down, and 
what will always slow us down is our access to data, our 
ability to quickly integrate that data, and then to turn that 
data into something that we can then apply machine learning.
    Ms. Stefanik. Yeah. No, I understand, Mr. Deasy, the 
importance of cloud and the importance of data in terms of the 
fuel when it comes to AI. But my question--and I am going to 
continue asking these tough questions of the Department--is, 
when we are creating a Joint AI Center and we are failing to 
integrate the hundreds of other AI initiatives within the 
Department, that is of concern here, because it means that we 
are not looking at this from a whole-of-department approach.
    Again, I understand the connection to moving to the cloud, 
to access to data, but we need to continue pushing the 
Department when it comes to how we are addressing AI, because I 
am fearful we are falling behind our adversaries in terms of 
how they are addressing this.
    I want to ask a budget question as it relates to AI. We 
know that AI is a very shiny object. And if we label everything 
as AI, it is going to exponentially increase cost.
    So how are you dealing with this initiative and identifying 
true AI capabilities that the Department will need, in terms of 
your fiscal year 2020 budget request?
    Mr. Deasy. So we are working closely with the various 
components and the services on defining the categorization for 
AI.
    I want to point out that we are not ignoring 300. We are 
learning how to quickly get a flywheel going of how to bring in 
and integrate these initiatives. And I cannot stress that our 
flywheel is about 60-some days old now and we are integrating 
at a rapid rate.
    What we want to be able to do is to take all of those 
initiatives and define which of them are actually, truly NMIs 
and how can we better integrate those in the JAIC.
    And then the real question is, where they are not national 
mission initiatives and they are actually individual 
components, we have set up a requirement that if they are of a 
certain dollar value they need to go through JAIC, they need to 
be validated by JAIC to ensure that they are being set up the 
right, successful way. So JAIC will intersect with CMIs that 
exist out in the services when they hit a certain dollar 
threshold.
    Ms. Stefanik. Okay. Thank you.
    I yield back.
    Mr. Langevin. I thank the ranking member.
    So just a last couple of questions, if I could.
    Going back to the discussion on cloud, Mr. Deasy, I just 
wanted to say, so a fit-for-purpose cloud obviously can only be 
pursued with an exception from the CIO's office. Do you have an 
estimate of how many exceptions you are going to issue?
    Mr. Deasy. Earlier, there was a question asked about the 
ongoing 300-plus cloud initiatives, and I pointed out that one 
of the things we need to do is to go through and take a 
determination of how many of those are more general purpose 
versus what will be truly fit-for-purpose. That is something we 
still have to do.
    Right now, obviously, our focus is to make sure we know 
what the architecture is going to look like for our general 
purpose, which will help inform us on things that will stay 
fit-for-purpose or move over. So it would be really 
inappropriate for me--I would be surely guessing as to a 
certain percentage or a number of those 300 that will be 
migrated onto general versus fit-for-purpose until we 
understand the overall architecture.
    Mr. Langevin. Okay.
    And the last question I had for you, Mr. Deasy and for the 
panel: After CES phase two is unveiled and implemented, will 
there be a petition process for DOD components to participate 
in CES, such as the case of Ms. Hershman and the data 
scientist?
    Mr. Deasy. I think I understand the nature of your question 
as taking Cyber Excepted Service and how do we expand it to 
beyond. So I will tell you right now, we are already using 
those authorities on how we are approaching AI. We are going to 
need to use those authorities, clearly, when it comes to things 
like data scientists.
    So one of my asks back to Congress is to continue to help 
us on how we take the great work we have done with CES and 
think about other technologies that we are going to be 
confronted with and we are going to want to leverage inside the 
Department and be able to use the goodness of CES beyond its 
original cyber intended purposes.
    Mr. Langevin. Okay. But there will be a petition process 
within----
    Mr. Deasy. Yeah.
    Mr. Langevin. Okay. Very good.
    That is all I had at this point. Anything from the ranking 
member?
    Okay.
    So, in closing, let me just say, if I could, Mr. Deasy--and 
I appreciate the work that you and all of you are doing on 
these important topics.
    If I could just mention, I think that the approval request 
for resources, if they can move quickly to implement the Cyber 
Excepted Services, those requests, they are approved quickly--
it doesn't seem like a large number of people we are talking 
about--that would be helpful to move things along more 
effectively. But I leave that to you to work out, and we will 
be following up with this closely.
    I really do thank all of you for your testimony and for the 
work you are doing. I look forward to following up further at 
either hearings or briefings.
    But, with that, if there are no further questions, the 
committee stands adjourned.
    [Whereupon, at 4:21 p.m., the subcommittee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                           February 26, 2019
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2019

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 26, 2019

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    General Crall. A modern digital infrastructure is critical to 
defending against cyber-attacks as well as enabling machine learning 
and artificial intelligence. The DOD cloud initiative is part of a 
larger effort to modernize information technology across the DOD 
enterprise. Consolidating currently disparate efforts at the enterprise 
level will enable the Department of Defense to provide greater security 
and ensure greater reliability of the department's digital 
infrastructure. The DOD Cloud Initiative includes multiple cloud 
efforts, including JEDI Cloud. JEDI will allow DOD to take advantage of 
economies of scale, ensure superiority through data aggregation and 
analysis, and lay the foundational technology for artificial 
intelligence and machine learning.   [See page 21.]

    
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. In your testimony, you claimed $4.702 billion in 
programmed savings in FY17 and FY18. Can I get a list of these savings 
and where you found them?
    Ms. Hershman. The Department has saved $4.702B through reform 
efforts in FYs 2017 and 2018 combined, and is on track to save more 
than $6B in FY 2019. This achievement is a collective effort by key 
stakeholders in the Department. The CMO, Military Departments, and the 
USD(C) identified, validated, and presented savings formally in the FY 
2020 budget that were reinvested in priorities identified in the NDS. 
The Department was successful in meeting or exceeding many of its 
priority initiatives, including those related to achieving 
efficiencies, effectiveness and cost savings, audit readiness, and 
improving the quality of the Department's business operations. The list 
below includes some areas in which the Department has found found 
savings:
    <bullet>  Management Headquarters Reductions
    <bullet>  Services Requirements Review Board and Contractor Courts
    <bullet>  IT Circuit Optimization
    <bullet>  Enterprise Licensing Agreements
    <bullet>  Data Center infrastructure
    <bullet>  Military Health IT Optimization
    <bullet>  Defense Travel Modernization
    <bullet>  Defense Agencies and DOD Field Activities Civilian 
Personnel Reductions
    <bullet>  Defense Media Activity Business Process and Systems 
Review
    Ms. Stefanik. What is your savings goal for the next five years?
    Ms. Hershman. Over the next five years the Department is projecting 
a $44.9B savings in ongoing reform initiatives. These reform savings 
will be garnered from business process improvements, business systems 
improvements, policy reforms, weapons systems acquisition reform, 
divestments, and better alignment of resources to the National Defense 
Strategy. Additionally, studies are underway to further streamline or 
consolidate 4th Estate functions, with the intent on a more efficient 
structure.
    Ms. Stefanik. How are you re-investing the $4.702 billion?
    Ms. Hershman. DOD is actively institutionalizing reform and is 
committed to reinvesting the savings in the Military Departments in 
support of readiness and lethality priorities. The FY 2020 budget 
request builds on our success with the FY 2018 and FY 2019 budgets to 
repair damaged readiness and marks a key shift in preparing to deter or 
defeat great power adversaries well into the future.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Are any of the witnesses concerned about the 
investments China is making in Chinese companies to pursue Artificial 
Intelligence and Machines Learning capabilities? If so, how important 
is it for the United States to have a robust technology industrial 
base?
    Ms. Hershman. CMO will defer to DOD CIO's response to this 
question.
    Mr. Conaway. How does a winner take all cloud competition help 
bolster that robust industrial base?
    Ms. Hershman. CMO will defer to DOD CIO's response to this 
question.
    Mr. Conaway. What are the cyber risks of placing too much of our 
national security sensitive data within the infrastructure of one cloud 
provider?
    Ms. Hershman. CMO will defer to DOD CIO's response to this 
question.
    Mr. Conaway. Are you aware of any assessments underway at DOD or 
DNI to assess the implications of a vulnerability in a cloud providers 
infrastructure and how that vulnerability could impact data held across 
the national security enterprise?
    Ms. Hershman. CMO will defer to DOD CIO's response to this 
question.
    Mr. Conaway. What are security benefits of cloud diversity?
    Ms. Hershman. CMO will defer to DOD CIO's response to this 
question.
    Mr. Conaway. Are any of the witnesses concerned about the 
investments China is making in Chinese companies to pursue Artificial 
Intelligence and Machines Learning capabilities? If so, how important 
is it for the United States to have a robust technology industrial 
base?
    Mr. Deasy. There are three reasons to be concerned about the 
investments China is making in AI and Machine Learning.
    First, the significant scale and strategic focus demonstrated by 
Chinese Artificial Intelligence (AI) investments and their stated goal 
to dominate the global AI technology landscape. As stated in the recent 
Executive Order 13859 of February 11, 2019 ``Continued American 
leadership in AI is of paramount importance to maintaining the economic 
and national security of the United States and to shaping the global 
evolution of AI in a manner consistent with our Nation's values, 
policies, and priorities.''
    Second, the Department of Defense is concerned about the powerful 
tools available to the Chinese government to coerce commercial Chinese 
companies to support Chinese military AI development.
    Finally, the Department is concerned that Chinese military leaders 
have explicitly stated that their investments in AI are aimed at 
closing the gap in military power between China and the United States. 
China seeks to use AI as a tool to ``leapfrog'' the United States' 
current global leadership position in military technology. Given the 
progress in AI demonstrated by China over the past few years, that is 
not something the U.S. should take lightly.
    The strength of the U.S. technology industrial base and the 
commercial AI ecosystem is a critical source of U.S. competitive 
advantage. Just as commercial spending on computers and other 
information technology has historically far outpaced DOD spending, so 
too does commercial investment in AI. DOD should seek to effectively 
partner with American companies and draw upon the innovativeness of 
American AI experts. This partnership must, however, remain consistent 
with American values.
    Mr. Conaway. How does a winner take all cloud competition help 
bolster that robust industrial base?
    Mr. Deasy. The Department will implement a commercial General-
Purpose enterprise-wide cloud solution, Joint Enterprise Defense 
Infrastructure (JEDI), for the majority of systems and applications. 
However, the DOD's Cloud Strategy defines the need for additional fit 
for purpose clouds to meet specific needs and gaps. DOD expects that 
cloud technology and offerings will continue to become more 
interoperable and seamlessly integrated, enabling lower transaction 
costs and better inter-cloud security features across multiple 
providers. DOD is best served by a robust, competitive, and innovative 
technology industrial base.
    Further, maximizing competition is critical to a robust and 
comprehensive enterprise-wide environment for all cloud-related 
contracting actions and not limited to any one particular contract. 
Cloud-related contracting actions go beyond just contracts for hosting 
environments (whether the environment is JEDI, milCloud 2.0, DEOS, or 
other fit for purpose needs). More critically, the engineering and 
migration support necessary to develop and deploy systems and 
applications are often suited to companies with more agile and nimble 
capabilities, which often may be appropriate for smaller specialized 
business entities.
    Mr. Conaway. What are the cyber risks of placing too much of our 
national security sensitive data within the infrastructure of one cloud 
provider?
    Mr. Deasy. Applications and data within a single cloud environment 
are able to maximize the native security features of cloud technology, 
which includes robust and automated failover and redundancy features. 
The risks are managed according to the sensitivity of the data by 
adding controls at the specified security level. It is also important 
to note that a single cloud environment does not mean that all data and 
applications are hosted in a single physical environment where 
everything is vulnerable to a single attack. Rather, the provider will 
have varying levels of logical and physical isolation available, based 
the sensitivity of the data, which will work in concert with the 
Department's existing cyber security tool sets. Leveraging a single 
versus multiple cloud provider environment reduces the number of 
potential vulnerabilities, since with each provider comes additional 
connection points and accreditations, resulting in the possible 
increase in both vulnerabilities and time and cost.
    Mr. Conaway. Are you aware of any assessments underway at DOD or 
DNI to assess the implications of a vulnerability in a cloud providers 
infrastructure and how that vulnerability could impact data held across 
the national security enterprise?
    Mr. Deasy. The Department continues to perform an ongoing 
comprehensive risk assessment of cloud security risks. The risks are 
managed according to the sensitivity of the data by adding controls at 
the specified security level. This assessment is not limited to a 
particular current or future program, but rather is a holistic 
assessment across the Department's cloud portfolio. The Department's 
assessment is ongoing, continuously analyzing and understanding how to 
characterize risks and effectively mitigate them. The Department has 
also been looking closely at the work being done by groups outside of 
the government.
    Mr. Conaway. What are security benefits of cloud diversity?
    Mr. Deasy. The benefits of cloud diversity include more variety of 
choices in services, to include cyber security services, partnerships 
and unique solutions along with the increased availability of hosting 
locations, which provides physical diversity. Cloud diversity is 
beneficial, which is why DOD's Cloud Strategy is to remain a multiple 
cloud environment.
    However, technical complexity increases, based on the number of 
cloud providers and available offerings. The risk associated with 
deploying wide-reaching cloud diversity entails understanding how to 
deploy and secure workloads properly in any cloud environment while 
also understanding and utilizing all of the services available to help 
secure workloads across multiple cloud environments, when necessary.
    Mr. Conaway. Are any of the witnesses concerned about the 
investments China is making in Chinese companies to pursue Artificial 
Intelligence and Machines Learning capabilities? If so, how important 
is it for the United States to have a robust technology industrial 
base?
    General Crall. China's 2017 national AI strategic plan calls for 
Chinese technology to be on par with that of the United States by 2020 
and for China to become the world leader in AI by 2030. In 2019, 
China's aggressive pursuit of and investment in AI has significantly 
closed the technology gap with the United States. China now ranks first 
in the quantity and citations of AI research papers, holds more AI 
patents than the US and Japan, and exports armed autonomous platforms 
and surveillance AI. However, China's January 2018 ``White Paper on 
Artificial Intelligence Standardization'' points out that the China's 
AI ecosystem lags in several key areas: top talent, technical 
standards, software platforms, and semiconductors. These are strengths 
in our technology industrial base that the United States must 
capitalize on to maintain a leading edge in AI development.
    Mr. Conaway. How does a winner take all cloud competition help 
bolster that robust industrial base?
    General Crall. I agree with DOD(CIO) as the Department will 
implement a commercial General-Purpose enterprise-wide cloud solution, 
Joint Enterprise Defense Infrastructure (JEDI), for the majority of 
systems and applications. However, the DOD's Cloud Strategy defines the 
need for additional fit for purpose clouds to meet specific needs and 
gaps. DOD expects that cloud technology and offerings will continue to 
become more interoperable and seamlessly integrated, enabling lower 
transaction costs and better inter-cloud security features across 
multiple providers. DOD is best served by a robust, competitive, and 
innovative technology industrial base.
    Further, maximizing competition is critical to a robust and 
comprehensive enterprise-wide environment for all cloud-related 
contracting actions and not limited to any one particular contract. 
Cloud-related contracting actions go beyond just contracts for hosting 
environments (whether the environment is JEDI, milCloud 2.0, DEOS, or 
other fit for purpose needs). More critically, the engineering and 
migration support necessary to develop and deploy systems and 
applications are often suited to companies with more agile and nimble 
capabilities, which often may be appropriate for smaller specialized 
business entities.
    Mr. Conaway. What are the cyber risks of placing too much of our 
national security sensitive data within the infrastructure of one cloud 
provider?
    General Crall. I agree with DOD(CIO) as applications and data 
within a single cloud environment are able to maximize the native 
security features of cloud technology, which includes robust and 
automated failover and redundancy features. The risks are managed 
according to the sensitivity of the data by adding controls at the 
specified security level. It is also important to note that a single 
cloud environment does not mean that all data and applications are 
hosted in a single physical environment where everything is vulnerable 
to a single attack. Rather, the provider will have varying levels of 
logical and physical isolation available, based the sensitivity of the 
data, which will work in concert with the Department's existing cyber 
security tool sets. Leveraging a single versus multiple cloud provider 
environment reduces the number of potential vulnerabilities, since with 
each provider comes additional connection points and accreditations, 
resulting in the possible increase in both vulnerabilities and time and 
cost.
    Mr. Conaway. Are you aware of any assessments underway at DOD or 
DNI to assess the implications of a vulnerability in a cloud providers 
infrastructure and how that vulnerability could impact data held across 
the national security enterprise?
    General Crall. As the DOD(CIO) has emphasized, the Department 
continues to perform an ongoing comprehensive risk assessment of cloud 
security risks. The risks are managed according to the sensitivity of 
the data by adding controls at the specified security level. This 
assessment is not limited to a particular current or future program, 
but rather is a holistic assessment across the Department's cloud 
portfolio. The Department's assessment is ongoing, continuously 
analyzing and understanding how to characterize risks and effectively 
mitigate them. The Department has also been looking closely at the work 
being done by groups outside of the government.
    Mr. Conaway. What are security benefits of cloud diversity?
    General Crall. As stated by the DOD(CIO), the benefits of cloud 
diversity include more variety of choices in services, to include cyber 
security services, partnerships and unique solutions along with the 
increased availability of hosting locations, which provides physical 
diversity. Cloud diversity is beneficial, which is why DOD's Cloud 
Strategy is to remain a multiple cloud environment.
    However, technical complexity increases, based on the number of 
cloud providers and available offerings. The risk associated with 
deploying wide-reaching cloud diversity entails understanding how to 
deploy and secure workloads properly in any cloud environment while 
also understanding and utilizing all of the services available to help 
secure workloads across multiple cloud environments, when necessary.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. In June 2017 the administration issued EO 13800 to 
``Strengthen the Cybersecurity of Federal Networks and Critical 
Infrastructure.'' Yet, after the first defense-wide audit was completed 
in November 2018, Deputy Secretary of Defense Patrick Shanahan stated 
``We failed the audit. But we never expected to pass it.'' The 
subsequent report stated that the IT systems have ``systemic shortfalls 
in implementing cybersecurity measures to guard the data protection 
environment'' and ``issues exist in policy compliance with 
cybersecurity measures, oversight, and accountability.'' How are these 
two efforts--the EO and the audit--informing each other? What explains 
the significant noncompliance with cybersecurity standards almost two 
years after the EO was issued?
    Mr. Deasy. The DOD follow-on activities to EO 13800 and DOD actions 
to remediate FM Audit Notice of Findings and Recommendations (NFR) have 
important intersections. Following analysis of the FM Audit NFRs, DOD 
developed a prioritization approach that seeks to prioritize addressing 
those findings with a nexus to both cybersecurity and material 
weakness. These analyses and prioritization efforts pointed to the need 
for enterprise capabilities in support of Identify, Credential and 
Access Management (ICAM). Following DOD efforts to respond to EO 13800, 
DOD developed its top 10 Cyber Priorities. Among areas identified as 
the ``first four,'' were strategic initiatives associated with ICAM. 
These efforts are in alignment with ongoing Cyber Hygiene Scorecard 
efforts, which identified and tracked needed improvements associated 
with credential management, privileged users, and access control.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. As you are well aware, the overwhelming majority of 
internet traffic travels via undersea cables. Importantly, there are 
three major cable landing points in my home State of New Jersey. These 
cables and accompanying infrastructure are vital to economic and 
national security. What efforts are currently underway either internal 
to government or in partnership with the private sector to keep 
telecommunications infrastructure secure and accessible to the Defense 
Department?
    Mr. Deasy. The DOD partners with the Department of Homeland 
Security, Intelligence Community, other government agencies, and 
Industry on a routine basis to ensure the security and resiliency of 
undersea cables, landing sites and associated infrastructure. 
Specifically the DOD CIO, partners with Joint Staff, United States 
Strategic Command, Defense Information Systems Agency, and Defense 
Threat Reduction Agency to secure cable landing points by funding and 
remediating physical and cyber vulnerabilities found.

                                  [all]
</pre></body></html>
